<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016
                                  _______

                                      Wednesday, February 25, 2015.

                    QUALITY OF LIFE IN THE MILITARY

                               WITNESSES

SERGEANT MAJOR OF THE ARMY DANIEL A. DAILEY, UNITED STATES ARMY
MASTER CHIEF PETTY OFFICER OF THE NAVY MICHAEL D. STEVENS, UNITED 
    STATES NAVY
SERGEANT MAJOR OF THE MARINE CORPS RONALD GREEN, UNITED STATES MARINE 
    CORPS
CHIEF MASTER SERGEANT OF THE AIR FORCE JAMES A. CODY, UNITED STATES AIR 
    FORCE

                       Chairman Opening Statement

    Mr. Dent [presiding]. I would like to bring to order this 
hearing of the Subcommittee on Military Construction and 
Veterans Affairs. Good morning. I certainly want to welcome 
everyone to today's hearing on the military quality of life for 
our service members.
    Today's hearing is on quality of life for our enlisted 
soldiers, sailors, Marines, airmen, and their families. The 
four witnesses at the table are the senior enlisted members of 
their respective branches.
    Members should know that we have roughly 120 years in 
combined military experience before us today, although I should 
also note that two of our testifiers have 5\1/2\ weeks 
collectively in their new positions, despite all this 
experience. So this hearing is a great opportunity to identify 
where we can do more to help those who protect us and defend 
this nation.
    At this time, I would like to recognize our very fine and 
distinguished ranking member, Mr. Bishop of Georgia, for his 
opening comments.

                Ranking Member Bishop Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman, and thank 
you for yielding. Congratulations on your selection as Chairman 
for the 114th Congress. I look forward to working with you.
    I would also like to welcome Sergeant Major Dailey, 
Sergeant Major Green, and congratulate you both on your new 
roles. I am sure that you will do a great job, and I look 
forward to working with both of you.
    And of course, I would like to welcome back Master Chief 
Petty Officer of the Navy Mike Stevens, and Chief Master 
Sergeant Jim Cody, of the Air Force.
    I will keep my remarks very short so we can go directly to 
the testimony.
    I always look forward to the hearing because you give us 
the best picture of what those on the front lines are dealing 
with. We talk a lot about facilities, equipment, force 
structure, and strategy, but it is the men and women like the 
ones sitting before us today that really make our military what 
it is today.
    I believe that our service members and the support of the 
family members make our military great, and it is our 
responsibility to make sure that they are taken care of.
    So I look forward to your testimony, and we will get right 
to it.
    And thank you, Mr. Chairman, for allowing me to yield.
    Let me just say one other thing: Congresswoman Barbara Lee 
is not here. She is a member of the subcommittee.
    She regrets very much that she could not be here, but 
unfortunately, her mother passed away last week and she is in 
mourning and in preparation for the memorial service. And so I 
just wanted to let the committee know that our thoughts are 
with her, and of course, I hope that we will keep her and her 
family in our thoughts and our prayers as she goes through this 
difficult time.
    Thank you, Mr. Chairman. I yield back.
    Mr. Dent. Thank you, Mr. Ranking Member. And it is 
important for all of us to take time to reflect on behalf of 
the family of Barbara Lee.
    At this time I would like to introduce our witnesses today, 
starting with the Sergeant Major of the Army, Daniel Dailey, 
the pride of Palmerton, Pennsylvania, the charismatic kid from 
Carbon County, which is just over the mountain from me. I used 
to know it very well.
    But Sergeant Major Dailey is a first-time witness. Sergeant 
Major Dailey was sworn in as the 15th Sergeant Major of the 
Army on January 30, 2015, so just under a month, I guess, of 
experience in this job.
    Twenty-six years of service, enlisted in the Army in 1989, 
attended basic training and advanced to individual training at 
Fort Benning, Georgia, home of Mr. Bishop. Sergeant Major 
Dailey's awards include the Legion of Merit and Bronze Star 
Medal with Valor.
    I will also introduce at this time master chief petty 
officer of the Navy, Michael D. Stevens. And of course, he is a 
returning witness, appointed on September 28, 2012, becoming 
the 13th master chief petty officer.
    Thirty-two years of service, entered the Navy straight from 
high school in 1983. Master Chief served as wing command master 
chief for the largest helicopter wing in the U.S. Navy. Most 
recently served as 16th Fleet master chief for U.S. Fleet 
Forces Command.
    Of course, we also have today sergeant major of the Marine 
Corps, Ronald Green. Sergeant Major Green is a first-time 
witness and has about 5-6 days now, I guess, of experience in 
this job, and he assumed his current post as the 18th sergeant 
major of the Marine Corps just on February 20th.
    Thirty-one years of service, he served as a drill sergeant 
and master drill sergeant in Parris Island, and I wouldn't want 
to be on the receiving end of one of his lectures, by the way. 
He has served at two three-star commands, a rare distinction 
for the rank. He served Marine Corps Forces Europe and Africa 
in Stuttgart, Germany in 2010.
    Finally, I would like to introduce Chief Master Sergeant of 
the Air Force, James Cody. Chief Master Sergeant of the Air 
Force Cody is a returning witness, and I should note his wife 
Athena is here as well, in attendance, and is too a retired Air 
Force chief with over 25 years of service. It is always nice 
when your spouse can train you.
    Appointed in January 2013 as the 17th Chief Master Sergeant 
of the Air Force, 31 years of service, entered the Air Force in 
1984. His background includes various duties in air traffic 
control at the unit and major commands level. He served 
overseas in Germany, South Korea, Turkey, and deployed in 
supports of Operations Southern Watch and Enduring Freedom.
    Thank you all for taking the time to be here today. Without 
objection, your written statements will be entered into the 
record.
    Please feel free to summarize your remarks in about 5 
minutes. And we are going to go from right to left--or left to 
right, depending where you are sitting--starting with Sergeant 
Major Dan Dailey.

               Statement of Sergeant Major Daniel Dailey

    Sergeant Major Dailey. Chairman Dent, Ranking Member 
Bishop, distinguished members of this committee, thank you for 
the opportunity to join my fellow leaders to speak with you. On 
behalf of more than 2 million members of our Army team and its 
leaders, I would like to thank this committee for its continued 
support in defending and advancing all facets of our military 
quality of life.
    As the Sergeant Major of the Army, the best part of my job 
is being around the men and women of our great Army. The 
courage and dedication our soldiers, civilians, and families 
exhibit is astonishing.
    I believe our soldiers are the best-training, best-manned, 
and best-equipped force in history. It is essential that we 
maintain consistent and predictable resourcing to stay that 
way.
    Adequate resourcing allows Army leaders to demonstrate how 
much we care for our soldiers. When properly resourced, we are 
better able to meet the needs of the people who have 
volunteered to protect and defend our nation's freedoms, the 
family members who shoulder enormous sacrifices alongside them, 
and our family civilians who provide essential support for 
them.
    Caring for these people, for me, is nonnegotiable--and 
thousands of Army leaders I represent today. Caring for our 
people builds trust, and trust is built with predictability. 
This is the unwritten contract between the American people, her 
leaders, and the people of our Army.
    When I was in Sadr City in 2008 I was confident that as I 
readied my troops for their next mission the American people 
and our great civilian leaders had and would continue to 
provide what we needed to accomplish our missions. We trusted 
that we had been given the best equipment, the best training, 
and our families were being taken care of in our absence.
    We faced dangers that could not always be known on those 
missions, but what made us willing and able to do so was our 
confidence that we would never be asked to fight and win 
without the proper resources and support.
    As an advocate for the greatest team the world has ever 
known, I am very conscious that every fiscal decision we make 
together has the potential to impact our soldiers. Trust in 
leaders is essential.
    Not only does this affect our readiness today, it affects 
the all-volunteer Army of tomorrow. The total Army team must 
always trust that we have their best interests at heart.
    Today we are back in Iraq facing a new enemy, but perhaps 
the greatest enemy to the contract that I have mentioned and to 
our future is fiscal uncertainty. We simply cannot plan and 
conduct required training, and maintain diverse, high-quality 
soldier and family support programs, and be the most 
technologically advanced Army this planet has ever seen, 
without the predictable and adequate resources.
    But furthermore, I see a return of sequestration-level 
funding as a tipping point between our ability to maintain our 
responsiveness and our ability to maintain trust with our 
people. But with the continued support of this committee, trust 
can and will be sustained.
    Timely and predictable resources allow us to provide 
unmatched responsiveness at home and abroad while still giving 
soldiers and families the services and support they need.
    These soldiers, our Army professionals who make up today's 
all-volunteer Army, stand ever ready and willing to answer the 
nation's call because they believe in each other, they believe 
in the mission, and they believe in us. We must ensure our 
actions and decisions always reinforce that trust.
    With this committee's continued support, this we will 
defend.
    I appreciate the opportunity to speak with you today, and I 
look forward to your questions.
    Thank you, Mr. Chairman.
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
      
               Opening Statement of Master Chief Stevens

    Mr. Dent. Thank you, Sergeant Major.
    Then we will move right to Master Chief Stevens.
    Master Chief Stevens. Good morning, Chairman Dent, Ranking 
Member Bishop, and distinguished members of this subcommittee. 
Thank you for allowing me the opportunity to address you today.
    As I continue on my third year as the master chief petty 
officer of the Navy, it is my privilege to serve and represent 
the interest of over 325,000 active duty and 58,000 Reserve 
sailors.
    Today's sailor is more capable than any time in our 
history. They are forward-thinking, educated, and extremely 
dedicated to their nation.
    As we speak, nearly 100 of the world's finest warships are 
underway with thousands of these dedicated sailors standing 
awatch.
    My regular interface with our sailors and their families 
over the past year have shown an overall satisfactory quality 
of life. However, the ongoing discussion regarding possible 
changes to future pay and compensation has created an air of 
uncertainty.
    Although the spirit of budgetary reform is to reinvest in 
the sailors' quality of service, our sailors are concerned that 
more reductions will follow in medical benefits, pay and 
compensation, and family programs. The Navy is working very 
hard to minimize this impact and ease their concerns, but the 
fact remains: They are concerned.
    Uncertainty in the geopolitical and operational world is 
understandable and our sailors ``get it.'' However, ambiguity 
in those areas we control, such as sequestration and military 
pay and compensation, are not so easily understood by them.
    Although I have many concerns for our sailors and their 
families, if you were to ask me today to pick one with regard 
to pay and compensation, my greatest and immediate concern for 
our people is the future of their health care. Health care is a 
quality of life issue that consistently resurfaces during my 
fleet interactions. It is extremely important to our sailors 
and their families and is very influential in recruiting and 
retention decisions.
    While we consider recommendations by the Military 
Compensation and Retirement Commission, I am confident our 
department will provide the very best possible recommendations 
to this subcommittee. And I trust you will move forward in a 
cautious--and I must repeat--cautious and deliberate manner.
    Outside military pay and compensation, my greatest and 
immediate concern is the condition of our single-sailor 
barracks. Because the Navy must prioritize critical warfighting 
requirements, we have unfortunately found ourselves taking risk 
in our barracks infrastructure.
    This risk has resulted in the overall condition of our 
barracks falling to approximately 50 percent adequacy. Should 
sequestration resurface, I am concerned the conditions of our 
barracks will decline even further.
    This standard of living directly impacts our sailors' 
quality of life. With your support, it is my hope we can 
prioritize funding to improve living conditions for sailors.
    A major quality of life area that sustains the resiliency 
of our sailors and their families is our Family Support 
programs. Our sailors and families have come to depend and rely 
on these resiliency programs.
    To name a few: the Fleet and Family Support Centers, child 
and youth programs, our ombudsmen program, and family readiness 
groups. These programs are fundamental to our sailors' overall 
state of wellness and readiness, and I thank you for your 
continuous support in these areas.
    We can never take for granted these sacrifices that our 
sailors and their families make. Health care, barracks, and 
family support programs are areas that must be valued and 
protected for force readiness, recruitment, retention, and 
quality of life.
    As I have stated in prior testimonies, one of the most 
important and effective weapon systems we can provide our 
nation and Navy is a combination of individual and unit morale, 
and it is my firm belief that the support this subcommittee 
provides to the Navy greatly impacts our ability to sustain 
this weapon system. It is absolutely critical to the future of 
our nation's defense that we do everything in our power to 
ensure our sailors and their families are afforded the best 
quality of life we can offer.
    Again, I am grateful for the opportunity to address you 
today, and on behalf of the sailors and their families, I thank 
you. And I welcome your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               Opening Statement of Sergeant Major Green

    Mr. Dent. Thank you, Master Chief Stevens.
    Sergeant Major Green.
    Sergeant Major Green. Chairman Dent, Ranking Member Bishop, 
distinguished members of the committee, thanks for the 
opportunity to appear before you today to provide an update on 
your Marines and their quality of life.
    Chairman Dent, let me congratulate you on your selection as 
the chairman of this august committee.
    I would be remiss if I failed to take a moment to recognize 
and pay homage to Representative Alan Nunnelee, a former member 
of this committee and one of my fellow Mississippians who 
passed away suddenly on February 6, 2015. Representative 
Nunnelee was a true American patriot, and my condolences go out 
to his family and the colleagues here in Congress.
    On Friday, February 20, 2015 the 36th commandant of the 
Marine Corps, General Joseph F. Dunford, appointed me the 18th 
sergeant major of the Marine Corps. I am humbled for his 
selection and truly honored to be here today.
    As the 18th sergeant major of the Marine Corps, my main 
efforts will be on mission accomplishment first, Marines and 
families always.
    I know this committee and the American people have high 
expectations for the United States Marine Corps. You expect 
your Marine Corps to serve as the naval, expeditionary force-
in-readiness, a force that is most ready when the nation is 
least ready. The Congress gave the Marine Corps that mission in 
1952.
    Our operational tempo remains high. And despite the 
drawdowns in Iraq and Afghanistan, the enemy continues to vote 
to impose a different way of life than our own.
    Your Corps is here to ensure that they don't win the 
election. We do that by changing their will or their ability to 
fight--or, as I tell the young warriors, changing their minds 
or their zip codes.
    No matter what, we must make A's on the battlefield.
    The combat readiness you deserve from the Corps is 
comprised of unit, personal, and family readiness. With the 
current fiscal climate, we may have to take risk in many areas.
    To meet our responsibilities, we prioritize near-term 
readiness while assuming risk in our hometown stations, 
modernization, infrastructure sustainment, and quality of life 
programs.
    We understand as an institution that family readiness and 
quality of life is a key fundamental of overall readiness and 
combat effectiveness. The Marine Corps will continue to 
identify and protect core programs that meet established 
standards.
    The decisions we make are balanced and have synergy in 
areas of family, unit, and personal readiness. However, within 
the past year we have had to take significant financial cuts in 
core areas while protecting programs like behavioral health and 
sexual assault prevention and response.
    Funding levels for the Marine Corps below the presidential 
budget may force a choice between quality of life and quality 
of work; and we may be forced to choose between the most-ready 
Marines or morale and family support services such as child 
care and family readiness programs.
    We are a proud Corps and we take care of our own, including 
our families. And that commitment is unwavering, and having to 
choose between quality of life at home and readiness for combat 
abroad is not a choice we should have to make.
    Thank you again for the opportunity to appear before you 
today, and I look forward to your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Opening Statement of Chief Master Sergeant Cody

    Mr. Dent. Chief Master Sergeant Cody.
    Chief Master Sergeant of the Air Force Cody. Chairman Dent, 
again, let me extend my congratulations on your selection.
    Ranking Member Bishop, distinguished members of the 
subcommittee, thank you for your continued interest in the 
quality of life of our Airmen. It is always an honor for me to 
join my fellow service senior enlisted advisors as we represent 
the fine men and women who serve our great nation.
    I would also like to, before I begin, acknowledge and 
recognize the tragic loss of Congressman Nunnelee. He served 
this committee well. He served his constituents well and 
certainly cared deeply about the men and women and their 
families that serve our great nation. So our thoughts and 
prayers remain with his family as they go through this 
difficult time.
    Today more than 670,000 total force Airmen and families 
serve in a historic period in our military history. We are the 
smallest Air Force we have been since our inception in 1947.
    This is historic for us, and it is also exacerbated by the 
fact that we are more globally engaged today and continue to 
operate in the longest sustained combat operations in the 
history of our country.
    On top of all this, we do this with an all-volunteer force. 
A force that continues to experience uncertainty and churn with 
respect to mission capability, compensation, and the meaning of 
service. We must never forget that these men and women who 
raise their right hand do so freely, proudly, and volunteer 
because they believe in what America stands for and stand ready 
to defend that cause.
    There is no question the past year has been extremely 
stressful on all members of the Air Force--active duty, Air 
National Guard, Air Force Reserve, and civilian Airmen. I am 
joined today with my wife, Athena, as Chairman Dent opened up 
with, as well as the command Chief Master Sergeant for Air 
Force Reserve Command, Cameron Kirksey. Both have visited with 
thousands of Airmen and family members over the past year and 
have listened to their concerns and witnessed firsthand their 
passion for service, and they can affirm the impact of the 
uncertainty, is having on our force today.
    Yet, despite the stress, our Airmen continue to serve 
proudly and are grateful to this subcommittee for its 
longstanding support. We rely on your efforts, your actions, 
and legislation to protect our service members' and veterans' 
pay, benefits, and overall quality of life. We also appreciate 
the many visits by members and you have made to support our 
Airmen in the field.
    I believe you had a chance to read my written statements, 
which includes greater details on the current status of our 
infrastructure investments and key programs as well as the 
current concerns of our Airmen and families. I look forward to 
the opportunity to answer any questions you may have.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Dent. Thank you all for your statements.
    And thank you two for your kind words about our former 
colleague, Alan Nunnelee, a wonderful man, and we miss him 
dearly.
    But before we begin our questions today, I would just like 
to remind members about our hearing rules, and I know many 
members here today have a number of hearings that they are 
trying to get to.
    But first, I intend to begin all hearings on time. For 
those members present in the room when I gavel in the beginning 
of the hearing, I will recognize you for questions in order of 
seniority, alternating between majority and minority. For those 
of you who arrive after the hearing has started, I will 
recognize you in order of arrival, alternating between majority 
and minority.
    This order will continue though all rounds of questioning.
    And last, intend to observe the 5-minute rule for questions 
and answers. The goal is to have more opportunity for all of 
you to ask questions and hear from this expert panel, so if we 
keep the proceedings moving we will accomplish that.

           TOP THREE QUALITY OF LIFE CONCERNS OF THE SERVICES

    And with that, I will begin with the questions. First, I 
guess I will start with Mr. Cody.
    One perennial question I always like to ask at these 
hearings is, what would you say are the top three quality of 
life concerns of enlisted personnel in your service branch? If 
you had to list them, what would be the three?
    Chief Master Sergeant Cody. I think I would kind of 
capitalize on what MCPON stated. When it comes to our Airmen 
and their families, there is great concern with regard to their 
compensation and their benefits in the future.
    Topping that, certainly are medical benefits and what that 
will look like in the future. They are concerned with 
reductions that might take place in their actual pay on any, 
and that pay extends into their housing allowances, and what 
not.
    And the certainty of their ability to serve. I mean, this 
unprecedented time, it may be different or--a little different 
for each service, but for us and our Air Force, we went through 
significant force management last year, creating the smallest 
Air Force we have had in our history.
    There was a time when I could tell you, 30-plus years ago 
when I came in, if you were a good airmen and you worked hard 
you would have the opportunity to serve 20 years. You didn't 
worry about that ability to do so. For our Airmen, we cannot 
say the same thing to them today, and we have had to let many 
good airmen go before their desired time.
    So those would be the top concerns that I think they face, 
the uncertainty of the future and what will it mean for them to 
serve.
    Mr. Dent. Thanks.
    Anybody else like to chime in on that one?
    Sergeant Major Dailey. Thanks, Mr. Chairman. I would.
    And I share the same concern as Chief Cody. Our soldiers 
are greatly concerned.
    The number one concern as I make my travels is the 
uncertainty with regards to the drawdown caused by lack of 
resources. Soldiers, again, have the opportunity to serve.
    And when I took over this position just a few days ago, I 
said the great beauty about the United States Army and all of 
our military services is that everybody, with the right level 
of motivation and the right drive and the right passion to do 
what they want to do for our nation, can be successful in the 
Army. That may not be true today, and that is my biggest fear.
    We may have to tell good soldiers to go home. We are 
managing that through the use of accessions, retention, and 
quality control programs. But unfortunately, if we continue to 
see fiscal restraints and we return to sequestration levels of 
funding, good soldiers will be asked to go home.
    Mr. Dent. Chief.
    Master Chief Stevens. You will probably hear it more than 
once today, Mr. Chairman, but pay and compensation, the 
uncertainty and the anxiety that that generates is certainly on 
our sailors' and their families' minds, just the wondering, 
what is going to be the future?
    I am confident with what I have seen coming out of our 
department that the recommendations that will go forward will 
be in the best interest of our people and their families, and I 
am confident also that this subcommittee and other members of 
Congress will recognize the same thing.
    But just as importantly, I think, we have to recognize that 
they think about their quality of service. When I say quality 
of service, it is the tools they have to do their job, the 
conditions of the platforms that they serve on, be it 
submarines, aircraft, ships, and the many other platforms that 
they have, the weapons that they use. They are also thinking 
about that.
    We can't just focus solely on pay and compensation. We also 
have to remember that they all rose their right hands, swore an 
oath to do a job, to serve their country, and we owe them the 
best possible equipment that we can provide. So they think 
about that quite often, as well as pay and compensation.
    Mr. Dent. Sergeant Major.
    Sergeant Major Green. Yes, sir. Chairman Dent, Marines come 
into the Corps to serve this nation. They come in to deploy and 
defend this country.
    I spoke about three types of readiness earlier: unit 
readiness, family readiness, and personal readiness. With the 
units, as the MCPON said, the Marines want to know that they 
have the proper gear, the proper training ranges, the ships to 
deploy on, and they are going to go out and face the enemy. 
They want to know that they are prepared to do that.
    The families, on the other hand, want to know that when the 
Marine crossed the line of departure they are going to be taken 
care of--health care, child care, facilities, all those things 
are taken care of.
    Personal readiness, when we talk about personal readiness, 
sir, Marines deploy--we are either preparing to deploy, deploy, 
or returning from deployment. All facets of that take 
resources, especially the return--the timeframe that Marines 
have to get themselves together with their families, within 
their brain-housing group, their minds, psychologically, to 
prepare for the next deployment.
    The dwell time is a concern. One-to-three would be optimal. 
We are less than one-to-two in a lot of places.
    So worry is a concern of our being able to come back, 
reset, but we have no problem with deploying again.
    Mr. Dent. Thank you.
    And my final question--and I will try to do this quickly in 
a minute--you mentioned about the personal well-being of the 
service members and their families. Just can you, any of you, 
just kind of share with this committee your thoughts on, you 
know, mental health issues, behavioral health?

                           BEHAVIORAL HEALTH

    You know, are we doing enough to assist the services in 
terms of the mental health challenges that many service members 
have faced? And I will witness the alarming and sad suicide 
statistics. And anything you could share with this committee on 
that front?
    Sergeant Major Dailey. Sir, as the largest service, and 
this is greatly affecting us, as you know, over the course of 
the year wars that we have gone through. Soldiers have impacted 
greatly from the experiences they have seen in combat.
    But, I can tell you that we have made great strides, with 
the help of this committee and others, to deliver the 
appropriate level of health care we need to our soldiers.
    The one thing I am most excited about is our unit-level 
behavioral health programs. We placed unit-level health 
programs down at the unit level, battalion levels, and it gives 
those soldiers the opportunity to make it a daily part of life.
    It breaks the stigma of them using health care. They see 
their leaders, they see their peers, they see their 
subordinates using health care on a regular basis, and I think 
it is making a difference.
    Mr. Dent. Ignore the buzzer.

                     MENTAL HEALTH ISSUES/CONCERNS

    Master Chief Stevens. Buzzers in the Navy usually mean we 
have got to do something. [Laughter.]
    I echo what Command Sergeant Major said with regards to 
mental health. The progress we have made in the decade-and-a-
half has been unprecedented and remarkable. All you have to do 
is go up the road to Walter Reed Bethesda and see the work that 
they have done there, the facilities that they have put in 
place.
    What we are doing today, it is always a concern but it is 
not a great concern because we believe we have the resources in 
place. But what will be a concern is if we lose sight and we 
forget that the real work will continue long after the battle 
has been completed.
    And we need to make sure that those resources remain in 
place for the long haul, because many of these challenges that 
our service members will undergo will come up in the future. 
And we need to make sure that those resources are ready for 
them should the time come.
    So what we are doing today is great, but what we are doing 
tomorrow is just as important.
    Chief Master Sergeant Cody. Chairman Dent, I think I agree 
certainly, with my fellow enlisted advisors here, I have 
significant concern in this area in our force, specifically our 
Air Force.
    We are doing some of the same things that the Army and the 
Navy are doing, and we are embedding mental health 
professionals within the operational units. And I do see some 
great benefit to that. We are seeing some great results.
    But that is not producing the end state result that I think 
you know, we are looking for, and that is a significant 
reduction in the amount of mental health issues, whether that 
manifests itself to the most tragic of a loss of a suicide, or 
also how it manifests itself in family behaviors and the 
dynamics within the family.
    So we are trying to institutionalize across the board, 
where we put some better training into our very front line 
supervisors' ability to have a level of knowledge where they 
can maybe identify some predictors for us, where we can 
better--sooner identify people that are having difficulties and 
get them the proper help, whether that be in a clinical 
environment or just in a support structure.
    But I think we are doing a lot of things, but I know we are 
very focused at doing more things to kind of get ahead of this. 
I think the real problem is going to be to post-traumatic 
stress. We have no real appreciation of what this will look 
like this--to us in 5, 10 years, when we are in a different 
status.
    Sergeant Major Green. Sir, you mentioned suicide. Suicide 
is the end state.
    In the Marine Corps we are getting at everything that 
caused the suicide, and everything that causes suicide is 
resource-driven. They are programs--the programs that are 
threatened to be cut if we have to measure whether we are going 
to make A's on the battlefield or what the situation is going 
to be back here with readiness with the programs, with family 
and personal readiness, sir.
    That is what we are getting at in the Marine Corps, and 
that is what is most important to us.
    Mr. Dent. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.

                    MENTAL HEALTH AND SUICIDE ISSUES

    Just to follow up on that, I want to congratulate all the 
services. I mean, we really put a pretty strong mandate on all 
of you to really address these mental health issues, and so far 
the statistics show that there is a downturn, with the possible 
exception of the Guard and Reserve.
    And so I would like to, particularly Sergeant Major Dailey 
and, of course, either of you to comment on the fact that the 
numbers with the Guard and the Reserve still seem to be high, 
although the others are dropping significantly, and that is a 
good thing. So how are we getting at addressing the mental 
health and the suicide problems among the Guard and Reserve so 
that those numbers will come down?
    Sergeant Major Dailey. Ranking Member Bishop, this is a big 
concern for us in the Army. Because the Guard and Reserve are 
geographically dispersed and they don't have the great assets 
that we have at our major military installations that can be 
benefitted by our active duty soldiers and family members every 
day, we had to take a different approach.
    We use our programs like Army OneSource and behavioral 
health call lines to be able to do--train and educate our Guard 
and Reserve soldiers that they do have the availability of 
those resources out there.
    We still have a lot of work to do. Chain of command--again, 
as I said, leadership is always the number one way to make sure 
that we are taking care of our soldiers regardless of the 
component of which they are in. And our soldiers and our 
leaders do receive the appropriate level of training, and we 
have to continue to resource and train and educate those 
soldiers and their leaders every day to make sure that we get 
after this battle.
    Mr. Bishop. Anybody else?
    Chief Master Sergeant Cody. Congressman Bishop, I think in 
our Air Force we are actually, to your point, we are doing 
somewhat better, but you are chasing a number and maybe chasing 
the wrong thing in that capacity, because one is too many.
    But the reality is we are trying to institutionalize at the 
very lowest possible level this ability for our Airmen to have 
a relationship with the men and women that they serve with. We 
don't have the visibility, as the situation for the Army.
    You know, specifically when you talk about our traditional 
reserve component Airmen, one weekend a month, two weekends a 
year--to have the eyes on that person to understand what is 
going in their life, we think that is where really the big end 
dividends will be paid is if we know our people better, we have 
meaningful, purposeful relationships with them. They will 
understand we are a resource, our Air Force is a resource to 
them, and they will reach out to us when they are going through 
the family dynamics that we all go through in life, but they 
will feel connected to their Air Force to get those sources.

               DRAWDOWN MANAGEMENT PROGRAMS AND POLICIES

    Mr. Bishop. Switching gears for a moment, the Army has got 
a real challenge in drawing down, as you are the largest of the 
services. How are you ensuring that you will retain the most 
talented people and those with the most combat experience? And 
what type of drawdown management programs and policies is the 
Army using to shape the force?
    I am worried about--and of course, you mentioned the impact 
of morale on the force in terms of the end strength and the 
uncertainty of whether they are going to be able to make 
careers or not. How are you dealing with that?
    And also, in terms of mission readiness, how are you 
dealing with dwell time? How will you deal with dwell time with 
the real requirements that we will have in order to have a 
strong force with morale and readiness as you draw down?
    Sergeant Major Dailey. Ranking Member Bishop, I can assure 
you that we share that same concern, of all the things that you 
just mentioned. First and foremost, I will cover our drawdown.
    As you know, we are not excited about drawdown. It is 
something that we have been asked to do; it is not something 
that we want to do as an Army. This is something that the Chief 
of Staff of the Army and the Vice Chief of Staff of the Army 
have been very clear on: They are not comfortable with the 
levels at which we are going.
    But, what I can assure you is that we are doing this with 
good regards to the U.S. and the taxpayers. We are using a 
standard based approach to make sure that we select the best-
qualified individuals to stay.
    Again, we are managing our end strength by managing our 
accessions, the people we bring in, as well as our retention 
program while they are in service.

                            STATE OF MORALE

    The next question on morale: This is one of my top 
concerns. I would say that the state of morale of our soldiers 
is very positive with regards to their mission accomplishment. 
Never before in history has our Army been better-trained, 
better-manned, and better-equipped.
    But they see the future. They see it on the news every day. 
And they think there is uncertainty, and that bothers me.
    When I deployed to Iraq four times, the one thing I never 
had to deal with--I had to deal with all of the uncertainties 
of combat, the loss of soldiers, but never once did a soldier 
say, ``I am worried about my family.''
    I am worried that someday a soldier is going to ask me that 
when I am in combat. What I really need them focused on is the 
mission. I need them focused on saving their fellow soldiers' 
lives, and making sure we bring everybody home, and make sure 
we make this nation proud.
    Lastly, you asked about our mission, our dwell time. As you 
know, we worked very hard to get our dwell time down from--in 
the height of the war it was increasing up to 15 months. We had 
to extend units in rotations. For most of the war it was 12 
months, and now we have that down to 9.
    But, because of the uncertainty that is happening around 
the world, I am fearful that, based upon the numbers that we 
are going to, 450,000 in the active component, that if we have 
another situation that requires us to deploy in multi-fronts, 
that our dwell time will go well beyond what we have seen in 
the past, and that is a big concern for us in the Army and our 
soldiers and their welfare.
    Mr. Bishop. Thank you.
    My time is up.
    Mr. Dent. Mrs. Roby.
    Mrs. Roby. Well, good morning. Let me just say to each of 
you, thank you so much for being here, but also thank you for 
your service to our country, and to your families for their 
sacrifice that they make, as well. All of us here very much 
appreciate what you do, and for all of you in the room.
    Look, I feel very strongly that the BCA was a terrible 
idea. Using our military as a means to end our budgetary issues 
here in Washington is flat-out wrong, and I think you have all 
adequately addressed the issues surrounding what October 1 
looks like, what we are staring in the face.
    Just Monday night we had the Army at Fort Rucker, in 
Alabama, for a listening session; 1,600 people in our community 
showed up. And I have deep concerns and I have expressed these 
to most of you here.
    Our military families are not immune to the 24/7 news 
cycle, and our military families, that young soldier down at 
Rucker with a newborn child that is staring at deployment in 
the face, worried about whether or not they are going to get 
their paycheck, their family is going to be taken care of while 
they are away--this is not the right way for us to go about 
supporting our military families.
    But as has already been expressed, the concerns with all 
the threats around the world right now that we have got to be 
prepared and ready to continue to defend this nation, and so I 
know everybody here on this committee is committed to our 
military families, but also deeply concerned, as we move 
towards October 1, about what this looks like.
    And so I just want to make my position clear that we have 
got to fix this. We really have to fix this.
    Having said that, I would like each of you to address the 
transition from the service to the civilian workforce. This, 
too, is something that we are concerned about. What are we 
doing to help our service men and women to facilitate that 
transition into the workforce?
    So if you could address that, this is obviously going to be 
an increasing factor if we continue down this road.
    Sergeant Major Dailey. Yes, ma'am. Ma'am, first I would 
like to thank you personally for your comments and the 
community outreach the other day. I read those in the news and 
I appreciate your support for what we are doing, and I 
appreciate the understanding of not only just soldiers and 
families, but there is a community outside of our gates, so 
thank you.
    We are working very hard, and frankly, in the past we 
haven't done a good job. But I know for the last 2 years, we 
have.

                    TRANSITION FROM ARMY TO CIVILIAN

    And what we are doing is we have revamped our training and 
education platforms for our enlisted soldiers to make sure that 
we capitalize on any opportunities for them to get 
credentialing opportunities that equate to civilian jobs in the 
civilian sector. Additionally, we have been partnering with 
academic facilities outside of our installations and making 
sure that our soldiers receive the maximum amount of academic 
credit for the courses that we give.
    We have a long way to go, but I am proud to say that today, 
we have over 86 credentialing programs right now, and even more 
we are gaining every single day.
    One of the great things we are also doing is partnering 
with our civilian industry, because they want--they understand 
the value of our soldiers. And, they are helping us run pilot 
programs at places like Fort Lewis, Fort Hood, and soon to be 
at Fort Polk, Louisiana, to help train and certify our soldiers 
in the skills and training that they need in the civilian 
sector.
    What has all of this resulted as? Well, we have dropped 
veteran unemployment rate by 1.3 percent last year, down to 5.3 
percent, which is below the national average for unemployment.
    I think that it is critical that we sustain programs like 
tuition assistance. Tuition assistance is an integral part of 
my leadership development program for my enlisted soldiers, and 
frankly, it is the way that we get at credentialing our 
soldiers prior to them getting out of the service.

                       MILITARY TRANSITION ISSUES

    With sustained programs like that, not only can we continue 
to build strong soldiers, but we can give the great product 
back to the American people that they deserve.
    Thank you, ma'am.
    Mrs. Roby. Anybody else want to add?
    Sergeant Major Green. Yes, ma'am. In the Marine Corps we 
understand the veteran's opportunity to work--I will give you 
an example, coming from the First Marine Expeditionary Force. I 
was a sergeant major there with 54,000 Marines, 6,000 sailors, 
and their dependent spouses. We have a program for the spouses, 
as well----
    Mrs. Roby. I was going to ask about that, so I appreciate 
you addressing that.
    Sergeant Major Green. They can attend with their spouse or, 
in my case, I thought I was going to be retiring in a few 
months. My wife attended the program where you can go at night 
or when it is convenient for the spouse. So we have that in 
place.
    Mrs. Roby. Good.
    Sergeant Major Green. Every Monday morning--every Monday 
morning if I didn't open it up, a sergeant major at the First 
Marine Expeditionary Force and all around the Marine Corps 
first walks in the room, thanks those warriors for their 
dedication to their country and to the Marine Corps. The 
commanders are briefing them 90 days out.
    This process, we understand, starts about 2 years into a 
warrior's career. The career plan is taking them to their 
commanders so that they can have those interviews, so we know 
exactly who plans to stay, who plans to leave the Marine Corps, 
and we are providing the necessary resources prior to getting 
out so when they get to that point where they are going through 
transition they are comfortable.
    Entrepreneurship, the schooling, the education they need, 
or the workforce--we are aligning them with those 
opportunities.
    Mrs. Roby. Thank you. My time is expired.
    Thank you all again for being here.
    Mr. Dent. Mr. Farr.
    Mr. Farr. First of all, Mr. Chairman, I would like to thank 
you for asking the questions about quality of life for family. 
And I appreciate the really strong responses.
    And I hope that members of this committee will remind our 
colleagues on the Budget Committee that you cannot provide that 
quality of life by sequestering the programs in the communities 
in which the military families live in. If the schools and the 
roads and the hospitals and all the housing and everything that 
they depend on, particularly if they are living off base, don't 
have the money to operate because we cut it, and then exempt 
the military, thinking that we are going to make military 
strong, I think it is just wrong. So I really appreciate you 
reminding us that it is the whole community.
    You know, all politics is local, as are all conflicts, and 
engagements, and all the men and women in uniform come from 
some community. And my community is a defense community; it is 
the Monterey Peninsula.
    And I was very impressed with your comments, Chief Cody, 
and for mentioning the Naval Postgraduate School. I also have 
the Defense Language Institute and about nine other missions 
that the military carries there.
    I am just wondering. In your testimony you talked about 
programs at the school and the Air Force Institute of 
Technology that promote the advanced education for not only 
officers but for highly qualified enlisted members, and you say 
that you believe this to be the best investment Congress can 
make, an investment that broadens the capabilities and skill 
sets of our service members. And, as Master Chief Stevens said, 
our most valuable weapon system is our service members.
    I am just interested in hearing your comments about how we 
could better utilize the Naval Postgraduate School and whether 
we could send highly qualified enlisted soldiers to this 
school.

                 NAVAL POSTGRADUATE SCHOOL UTILIZATION

    Chief Master Sergeant Cody. Congressman, I appreciate the 
opportunity. So I think the intent of those statements are as 
we are looking at the broadest spectrum of how we can continue 
to develop this force.
    And I have to go back to my opening statements. When you 
are the smallest force you have ever been, every person and the 
investment you put in every Airman--and I think the same could 
be said for every other service member--becomes that much more 
critical for the nation when you talk about the capabilities.
    So I would kind of provide Master Chief Stevens an 
opportunity, also, to kind of comment on what they are doing, 
but we are trying to expand the aperture, where we know in the 
future we are going to have to leverage the enlisted force, the 
NCOs all the way up to our senior NCOs, in a much greater 
degree for capability for the nation. And where we can educate 
them and develop them across the spectrum, we can get more bang 
for our buck when you think about a smaller force.
    And they are absolutely capable of doing it. When you look 
at the overarching education level of our enlisted force today, 
you can't even compare that or have a conversation about what 
it was 30 years ago.

                   ENLISTED MEMBER GRADUATE EDUCATION

    Mr. Farr. Do you think those schools are important for 
that?
    Chief Master Sergeant Cody. I absolutely think those 
schools are important for that because they train and they 
educate our members on military type of studies, not just 
civilian studies, which are also important and we are able to 
use them as a force multiplier. But when you think of military 
leaders, strategic thinkers with the agility to respond to 
future conflicts and what might happen, you need a broad 
spectrum of folks that can do that.
    Master Chief Stevens. Thanks, Chief Cody.
    Congressman Farr, thank you for the opportunity to comment 
on this.
    That would be something that I would have to take back and 
look at. We haven't really looked seriously at our ability to 
or need to have enlisted sailors go to postgraduate school in 
Monterey, but it is certainly worth taking back and having the 
conversation.
    Up here we all recognize the important of secondary 
education, as our service has never been--never required more 
technical competencies than it does today----
    Mr. Farr. Homeland Security has a school within the school 
to train civilian first responders from all over the country at 
any level--small towns, everything--at the Naval Postgraduate 
School. It is a school within a school who trains civilians on 
all issues relating to homeland security, giving them a 
master's degree and/or a Ph.D.
    Master Chief Stevens. Sir, we currently don't use Monterey 
for our enlisted sailors to that capacity. However, we do 
leverage our tuition assistance, which is very important, and 
many, many of our sailors get their associate's, bachelor's, 
and master's degrees through that particular program.
    The Navy does have a scholarship-like program for our 
senior enlisted--a few of our senior enlisted leaders who can 
apply and we send them on to receive graduate degrees. So we do 
have precedence and we do utilize secondary education to better 
enable our force, and we could go back and take a look at 
Monterey and see what the potential or possibilities are.
    Mr. Farr. Thank you. Please do.
    Sergeant Major Green. Sir, Congressman Farr, I am sure you 
are aware that we have a foreign area officer program that goes 
through Monterey. We have a foreign area staff NCO and regional 
area staff NCO program. That has been going for about 3 years 
now. Very successful program.
    Fifteen staff NCOs and enlisted Marines have completed the 
program. Eleven are back in their units doing great things; 
four are still out there at the component level.

                           LANGUAGE TRAINING

    We have nine going through the school right now, and we are 
looking to carry that program forward in the future. Thank you.
    Mr. Farr. Thank you.
    Sergeant Major Dailey. Yes. Congressman Farr, our area of 
interest, obviously, in your district is DLI, the Defense 
Language Institute, which for the Army is the world-renowned 
education platform for language and training.
    We are, in the very near future, going to expand our 
capabilities out there by instituting the foreign officer and--
the foreign area noncommissioned officer program, which would 
account for approximately 10 noncommissioned officers each year 
that come out and be trained at DLI and they will serve 
globally, alongside of their foreign area officers, on missions 
to provide support to our areas of interest and our global 
partners.
    Mr. Farr. A foreign area officer essentially is almost 
ambassadorial status. They have language skills, area studies; 
they are experts on the region they are going to. Thank you.
    Mr. Dent. At this point we would like to recognize Mr. 
Jolly for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    Thank you, to each of you, for being here this morning.
    Master Chief Stevens, you mentioned your concern over 
barracks being at about 50 percent adequacy. Can you elaborate 
on that? And might the other services be able to comment? I 
will ask you to keep it a little brief because I do have one 
other line of questioning.

                   ENLISTED BARRACKS CAPACITY QUALITY

    Master Chief Stevens. Thank you, Congressman Jolly.
    When I first got into this job nearly 3 years ago the Navy 
had--without getting into all the specific numbers, I will 
share with you that the Navy had a very good plan to get us to 
the quality of living standards that we had hoped for.
    So we rate our facilities in four categories and we call 
them Q ratings--one, two, three, and four--one and two being 
adequate living conditions, three being not adequate, and four 
essentially being condemned. We had established a process where 
we were going to allocate a certain amount of money each year 
that would get us to quality one and two. I believe the year 
was 2020 that we would get there.
    Then when we were faced with sequestration that no longer 
became a reality. The reality is now we are doing everything we 
can to simply sustain the barracks in the conditions that they 
are at now.
    Mr. Jolly. How many three and fours do you have?
    Master Chief Stevens. Well, we are--50 percent of our force 
is at quality one and two and the other 50 is at three and 
four.
    Mr. Jolly. Do you know approximately what the numbers we 
are talking about?

                         MILITARY CONSTRUCTION

    Master Chief Stevens. Roughly 65,000 of our sailors live in 
single-sailor housing, and half of those, so 30,000-plus of 
those sailors are living in substandard living conditions right 
now.
    Mr. Jolly. All right. Thank you.
    Other services? And again, I am sorry, but briefly?
    Sergeant Major Dailey. Yes, sir. We have been a little bit 
fortunate over the last decade because the amount of MILCON we 
received because of the interest in our barracks, and we 
definitely needed it.
    We still have barracks that need to be renovated, and we 
have those in mind for MILCON projects. But unfortunately, in 
fiscal year 2015, as you well know, and this committee works 
closely with our MILCON, we are not going to have enough money 
to get to those projects as soon as we need them.
    My biggest fear, though, is in another area, and that is 
sustainment, restoration, and maintenance (SRM) dollars. So we 
have spent the great taxpayers' money over the last 10 years 
across our 154 installations ensuring that our soldiers have 
world-class--and I mean world-class--facilities to live in.
    But if we don't sustain them over time they will quickly be 
no longer world-class, and that is my fear. We have had to make 
cutbacks already this year. Again, if we head into 
sequestration-level funding we will only be fixing essential 
service requirements and fixes inside those barracks, and over 
time they will degrade rather quickly.
    Chief Master Sergeant Cody. Congressman, we have about 
4,500 inadequate--what we would classify as inadequate bed 
spaces in the Air Force, so we are at the 90 percent adequacy 
level across the Air Force. So we feel fairly comfortable with 
that. We have about 850 permanent bed spaces, and the 3,600 in 
our pipeline, so that would be training environment, basic 
military training.
    Three hundred Airmen currently reside in those inadequate 
dormitories, realizing that adequacy is not safety; it just 
doesn't meet the square footage, doesn't have the upgrades 
that, you know, we think should be at the right level. We have 
concern here, but we are on track.
    We are really exploring what the Army is doing, and that is 
in privatization of dorms. They have it at Fort Meade and it 
looks like a very promising way ahead for us, but that is where 
we stood today.
    Mr. Jolly. All right. Very good.
    Sergeant Major, any thoughts on----
    Sergeant Major Green. Yes, sir. Like the Army, sir, we have 
done well, and we appreciate all the resources that you all 
have provided us over the last few years.
    Our biggest concern, sir, is if the resources are not--
continue to be provided, and if we fall under sequestration, 
the ability to sustain those barracks will fall into risk. We 
are going to take a risk. We are absolutely going to take a 
risk, sir, and that is our biggest concern.
    Mr. Jolly. Very good.
    The second line of questioning--we will probably run out of 
time, so I am going to update the other services on it, a great 
meeting that Sergeant Major Dailey and I had specifically on an 
interest of--or an issue of interest to me. It speaks to 
transition of credentialing, certifications for trades, and I 
think we are in the process of working out a meeting, a fly-in 
from folks from my state.
    One question I would have is maybe an update on what the 
services are doing, but more importantly--and when we run out 
of time please follow up with my office on this--what our 
states need to be doing to receive those credentials, to 
receive the certifications--if there are statutory changes in 
our states, if there are certification recognitions that need 
to change.
    We have communities, I know, in my district that are trying 
to solve this. You know, the services are solving it, as well. 
The conversation with Mr. Dailey was a great one.
    I look forward to working with you on it.
    Maybe comment on what is currently being done on the 
certification side to address the quality of life concerns of 
the transition, as well as what is the gap in the communities 
and states when folks draw down?

                      EDUCATION AND CREDENTIALING

    Sergeant Major Dailey. I will be quick, Mr. Congressman, 
because as you said, we had a great discussion, and I know our 
future plans will help soldiers in the future. I know that we 
are going to get better.
    To address your first question is, what can states do? I 
would say that state partnership with state schools, with 
regards to accepting the tuition assistance-level funding, is 
something we need. We need our soldiers partnered with those 
state schools.
    And frankly, we want them to be able to go back to their 
home states and reap the benefits of the opportunities they 
have gained throughout their service in the United States Army. 
And those technical skills have a lot of value back in those 
districts, and those state schools can partner.
    I think we are making great strides with credentialing, as 
you talked about, but I think there is a lot more work to be 
done. I think that we can continue to partner with our program, 
Soldier for Life, that works with our industry, and we can 
recognize the value of the soldier skills that our soldiers 
bring to the community workforce.
    Mr. Jolly. Very good. I can't run over time, but I want to 
let you know my personal interest in this. If you all might 
follow up with my office, this is an interest that is strong.
    [The information follows:]

    Soldier For Life (SFL) is also preparing Soldiers to become career-
ready prior to transition through Credentialing, Certification, and 
Licensing (CCL) initiatives, as well as apprenticeships targeting key 
skilled labor positions currently in high demand across the country. 
Example apprenticeship programs identified by SFL include the 
International Brotherhood of Teamsters Commercial Drivers Licensing 
national training program, and the Dawson Technical Institute's Gas 
Utility Workers Training Program for Veterans in Chicago. These 
training opportunities provide hope and encouragement to transitioning 
Soldiers who may e uncertain of their job prospects in a civilian 
lifestyle. The Career Skills Program is beginning to expand to 
installations across the country and Soldiers are participating in them 
with more confidence that when they complete these training programs, 
they will have a good job waiting or them upon discharge. As these 
Soldiers start to become part of the community as civilians, the gap in 
terms of the military draw down is replaced with qualified civilian 
workers.
    Navy has a dynamic program as part of a Joint Service initiative to 
promote civilian credentialing opportunities for military Service 
members. The Navy Credentialing Opportunities On-Line (Navy COOL) 
program offers Sailors the opportunity to earn civilian certifications 
and licenses corresponding to their Navy ratings, designators, 
collateral duties, and out-of-rating assignments. Every Navy occupation 
has at least one professional credential available, and more than 1,800 
civilian certifications are now funded. The program currently funds 
over 15,000 credentialing exams per year, for approximately 7,500 
individuals.
    The Navy COOL website is closely integrated with other Navy, DoD 
and Department of Labor programs that help Sailors meet credentialing 
requirements, including the Defense Activity for Non-Traditional 
Education (DANTES) credentialing program, United Services Military 
Apprenticeship Program (USMAP), and the Department of Veterans Affairs 
(VA) Post-9/11 G.I. Bill. This past year, Navy and Marine Corps linked-
up on a joint Department of the Navy COOL (DoN COOL) website that 
benefits members of both Services. The site averages 4.2 million hits 
per month (up from 2.5 million per month in FY2012) and has remained 
100 percent operational.
    Navy's Credentialing Program Office has been recognized by the 
White House, Department of State, Department of Labor, and Department 
of Energy, which have requested close collaboration with their own 
credentialing programs. Navy COOL has established a foundation for 
possible adoption as a DoD-wide COOL website for the benefit of members 
of each of the Armed Services.
    I would not be able to offer comment on the extent to which the 
laws of any particular state would need to be amended to enhance the 
facilitation of credentialing for members of the uniformed services.
    The Marine Corps introduced Marine Corps Credentialing 
Opportunities On-Line (COOL) on 1 October 2014 (https://
www.cool.navy.millusmc/index.htm). COOL provides credentialing 
awareness and information across a Marine's entire career--encompassing 
the spectrum of recruiting, retention and transition. It also provides 
information to potential employers about the occupational field 
experience and professional skills of transitioning Marines. 
Additionally, the Marine Corps is exploring the potential of additional 
training opportunities in some trades for transitioning Marines.
    Recognition and certification of the unique skills and attributes 
of combat arms occupational fields has tremendous potential application 
across numerous trades and businesses, but has yet to be defined in 
credentialing/licensing opportunities. Unlike more technical skills, 
e.g. commercial driver licensing, the uniquely qualifying skills of the 
combat arms fields, such as small unit leadership, complex problem 
solving, and intrapersonal dynamics and team-building, have yet to be 
fully explored by certifying trade organizations and associations.
    On October 2, 2014, the Air Force joined its sister services in 
providing service members opportunities to further their professional 
development and education. The Air Force Credentialing Opportunities 
On-Line program provides Airmen with a one-stop shop resource to 
research Air Force Specialty Code-related industry-recognized 
certifications and licenses. Airmen may apply for funding, similar to 
Military Tuition Assistance. All efforts are made to assist our Airmen 
in obtaining career and certification goals, while at the same time 
helping them to become more competitive with their peers in the 
civilian sector.
    The Credentialing Opportunities On-Line program covers the expense 
for the enlisted force to take the credential exam for approximately 
638 civilian credentials supporting 135 enlisted career fields. 
Although there are many aspects to credentialing, the two basic types 
are certifications and licensure. Most certifications are national and 
have the same requirements in every state, i.e. the ``gold standard'' 
Federal Aviation Administration's Airframe and Powerplant 
certification. However, occupational licenses are state or industry 
driven and can differ substantially.
    The Air Force is programmed to fund credential exams and associated 
fees for the next three fiscal years. However, due to recent budget 
constraints, we anticipate obstacles in carrying out the fiscal year 
2015 National Defense Authorization Act mandate requiring the Services 
to also fund coursework, text books, and materials.
    The Undersecretary of Defense for Personnel and Readiness has been 
directly involved with licensing efforts in dozens of states, in 2013-
14, through its awareness-raising and education efforts with the 
National Conference of State Legislatures, the National Association of 
Counties', military-focused forums within national and regional 
governors organizations, the Council on Licensure, Enforcement and 
Regulation, the Council of State Governments and the National 
Lieutenant Governors Association. As a result of these advocacy efforts 
29 states enacted 44 laws in 2013 easing licensing challenges for 
separated service members and veterans, 11 states enacted 12 laws in 
2014 easing licensing challenges for separated service members and 
veterans, and 13 bills are currently pending in 9 states easing 
licensing challenges for separated service members and veterans.

    Sergeant Major Dailey. Thank you, Mr. Congressman.
    Mr. Jolly. Appreciate it. Thank you.
    Mr. Dent. I always love it when the members of Congress 
self-censor themselves and watch time so carefully.
    Mr. Price.
    Mr. Price. I am sure our new member will learn fairly soon 
that he doesn't really have to do that. [Laughter.]
    Mr. Chairman, I want to thank you for taking on this 
leadership role. Look forward to working with you. We 
anticipate your leadership on both sides of the aisle.
    And to thank all of our witnesses here today. This has been 
a very useful hearing, very enlightening. You have been very 
straightforward, and appreciate the work you do every day, but 
also your leveling with us about what it is going to take to 
carry out your mission.
    There is, I think it is fair to say, a spectre hanging over 
this hearing, and we have heard it referred to in various ways. 
The spectre is sequestration--mindless budget cuts, 
indiscriminate budget cuts.
    We have heard references to the impacts, in terms of the 
uncertainty that the personnel themselves experience that--and 
the way that affects their morale. We have heard at the force 
level the effects of a possible drawdown and what that says 
about our capacity.
    Maybe we need to remind ourselves that there is nothing 
written in the heavens about sequestration. Sequestration is 
self-inflicted damage. It did not have to occur. It was not 
supposed to occur.
    Sequestration was a sign of failure and is a sign of 
failure.
    There are two main drivers of the deficit. One is tax 
expenditures and the other is entitlement spending.
    And sequestration came into effect because this Congress 
could not muster the political will to deal with either. Need 
to deal with both, but we dealt with neither.
    So ironically, we have left the main drivers of the deficit 
unaddressed, and here we are returning again and again and 
again to appropriated spending. And that applies to your 
budgets; it also applies to cancer research, and to 
infrastructure development, and to so much that we do on the 
domestic side of the budget. It is highly irrational and 
counterproductive.
    And you have shown us here today some of the effects on the 
functioning of our military. But the effects are devastating in 
domestic and nondomestic areas, and so, you know, this wasn't 
supposed to happen.
    We still need to address those main drivers of the deficit 
in a comprehensive way, but certainly in the near term we need 
a budget agreement along the lines of what we had in the 
current year to alleviate some of the worst impacts of 
sequestration.
    Anyway, that is--that leads to my question, as we implement 
hopefully not sequestration. But if we have to implement 
sequestration-level cuts, or, more likely, if we implement cuts 
that are just short of sequestration but still nothing to write 
home about, still nothing to celebrate, what would you say 
about the way we have done that in the past and the way we 
would do it now?
    There are protected categories, as you know, and there are 
other categories that are very vulnerable. They are probably 
more vulnerable because of the protected categories--personnel, 
compensation, and so forth.
    So as you look at this, as you look at what, in any case, 
is going to be a lot of budget pressure, what would you say 
about implementation--the protected versus the vulnerable 
spending categories, the need that--the need you might perceive 
to see that recalibrated?

                 SEQUESTRATION REDUCTION IMPLEMENTATION

    Chief Master Sergeant Cody. Congressman, if I might begin, 
I think I would tell you that is what we put in the budget, to 
be honest with you. And that is not the right budget, but that 
is the budget that we have to contend with.
    And we have tried to balance just what you described within 
that budget, where we were asking for some relief when it comes 
to some of those compensation programs because we are 
irresponsible as a nation to put men and women in harm's way 
knowing we could have done better. And we are balancing that 
risk, given these fiscal realities.
    It is reality for us. It is a different discussion outside 
of our circles, but the reality is we get a budget and we have 
to turn in what is going to be the most capable, best-trained 
force, able to be successful in any environment that our nation 
tells us to go in. At the same time, we must keep faith with 
the men and women and their families that continue to raise 
their right hand and serve.
    So I think, you know, give us a different budget, we will 
give you a different solution, meaning we want the budget to go 
to the right. Given the budget that we have, our best military 
advice that balances all those is represented in there.
    Mr. Price. You are confident that that is the budget before 
us?
    Chief Master Sergeant Cody. I am confident that is the 
budget we submitted given the dollar figure we were given for 
the budget. I am not confident that that number for the budget 
is enough----
    Mr. Price. No. You made that distinction very clear.

                           BUDGET CONSTRAINTS

    But any of the rest of you? I mean, are there adjustments, 
calibrations that you think should be considered down the road 
in terms of the experience you have had with this self-imposed 
austerity?
    Sergeant Major Dailey. Mr. Congressman, if I may, when we 
balance the requirements that we are given for the defense of 
this nation, there is a cost associated with it. And when we 
tried to find efficiencies, we have--and with regards to family 
programs and care--quality and care of life, and the amount we 
pay and benefit our soldiers.
    There is no more efficiency. There is no more efficiency to 
be gained.
    And when the Chief of Staff of the Army and the Vice Chief 
of Staff of the Army testify with regards to the resources 
required to maintain the readiness for the missions that we are 
asked to do in this complex environment, the President's budget 
for 2016 is the red line for the United States Army.
    Master Chief Stevens. Congressman, at the end of your 
statement I thought we were going to get an amen, but we didn't 
get it. So amen.
    Sequestration is a diet. It is a forced diet. And over the 
last year-plus we lost all the fat we could lose.
    Unfortunately, we are probably getting into a little bit of 
muscle now, and if we are not careful we are going to get into 
bone. I don't know how much longer, or how much more weight we 
can lose and still be healthy enough, essentially, if you want 
to compare it to the human body, still be healthy enough to do 
all the things that our nation is asking us to do.
    So I couldn't have said it any better than you said, 
obviously. That is why you are a congressman. But I thought I 
would use an analogy to help maybe close it up a little bit.
    Mr. Price. Thank you, sir.
    Sergeant Major Green. Sir, I just want to say one thing. 
Sequestration puts our national security at risk, sir. It 
really does. It really does. There is no other way to say it.
    The readiness of this nation, the less than 1 percent of 
this nation that defends it should not have to deal with 
thinking about if we are going to have enough resources to go 
forward and do our mission versus whether our families, our 
ranges, our barracks, everything that it takes to do the 
mission, is taken care of.
    It is absolutely going to leave us in a position to make 
choices that are going to hurt--it doesn't matter how you cut 
it. It is going to affect our readiness.
    Mr. Price. Thank you, sir.
    Thank you, Mr. Chairman.

                     TRANSITION ASSISTANCE PROGRAMS

    Mr. Dent. At this time I would like to recognize Mr. Joyce.
    Mr. Joyce. Thank you very much, Mr. Chairman.
    And thank you all for your service, and the ladies and 
gentlemen who sit behind, and your compatriots throughout the 
world, for what you are doing for us.
    I am obviously new to the committee, as is Congressman 
Jolly, and we were not here to vote for the Budget Control Act 
of 2011, but we have learned that we have to deal with it, too. 
And I certainly sympathize with what you are trying to get 
accomplished and all that you are trying to do.
    I do want to follow up--most of the questions I had have 
been answered very well by all of you, but as Congressman Jolly 
had brought up before, regarding the transition to civilian 
life, and what we are doing to help, and what we can do better 
to help in that respect.
    You know, I believe that after we got through with you, 
Sergeant Major, then the rest of you didn't really have an 
opportunity to address that. I am more than willing to donate 
my time to hearing your thoughts on that.
    Master Chief Stevens. Much like all of our services are 
doing, the Navy also has a credentialing online program, as 
well, to help our sailors that make the decision to transition 
out make that transition more smoothly and to find employment 
once they get out.
    We are getting better. We are seeing, as all the services 
are, I believe, getting better with the unemployment numbers. 
More of our folks are getting jobs once they get out.
    We put a lot of time, effort, energy, and resources, along 
with the department and with the help of this committee and 
Congress, with our Transition Assistance Program. It is far 
more robust today than it has ever been before.
    This is a big organization, and when you put something like 
that in place it takes some time to see what the results are 
going to be. And we believe we are now starting to see the 
results, and the numbers that are coming in are favorable.
    By no stretch does that mean we have it figured out, and 
there is certainly more work that we can do, but I believe it 
is also important to understand that any time we decide to do 
something like this there is an expense that comes with it. 
There are personnel you have to assign to it; there are efforts 
of work that go into it; and there is funding that has to go 
behind it.
    And as we just--or as I just mentioned, we are on this 
sequestration diet. And so if we decide we want to do something 
like this--because it is the right thing to do for our sailors, 
for our service members and their families--then we have to 
have the resources to back it up, because every good idea costs 
us a little bit of money.
    So it is never a matter of do we want to or don't want to. 
We always want to do the right thing, but we understand that 
there is a cost associated with it. And today we have to be 
really, really careful about starting something new because the 
money is really, really tight.
    Chief Master Sergeant Cody. So, just as the other services, 
and really in compliance with the 2014 and 2015 NDAA, we are 
congressionally mandated--we have--are getting more and more 
robust with our credentialing online opportunities. So getting 
our Airmen certificates that kind of really take their 
technical skills that they have learned and the experience that 
they have gained in the military service and put it into 
something that can be utilized, if they transition out of the 
military, in a quantifiable way.
    As the Master Chief Petty Officer Stevens said, you know, 
we are also very excited about how things are going with the 
Transition Assistance Program, and how more--how that is 
robust, and how we are leveraging with the Department of 
Veterans Affairs on some opportunities to help and partner with 
them to kind of feed our, you know, departing service men and 
women into that kind of construct, because there is a lot of 
opportunity there, too. So how we collaborate is essential in 
utilizing all these resources.

                          TRANSITION/TRAINING

    Tuition assistance is always still a big thing, but the 
Post-9/11 G.I. Bill and the Montgomery G.I. Bill, as it still 
sits today, are great opportunities to provide our departing 
service members, you know, a transition period here. I mean, so 
I would ask you to think seriously about how we preserve those, 
because it is very important to having them be successful as 
they make that transition.
    Mr. Joyce. Well, you know, I had 25 years as a D.A. and I 
can't tell you how many times it broke my heart when you would 
see someone who had come out of the service, who can't find 
employment, who is homeless, and they deserve better. And I 
meet with these unions and I meet with employers who say, ``We 
want to hire veterans.''
    I sympathize with the concerns of the people who are 
transitioning to civilian life, but we want to bridge that gap. 
I am new and I am willing to learn, so please, if there is any 
way we can help you in that process, please let me know.
    Sergeant Major Dailey. Mr. Congressman, if I may too, it 
is, and I invited Congressman Jolly down to see our world-
premier training facilities. We have invited industry leaders 
out to see some of the things that we are doing with our 
soldiers.
    And frankly, they are just not aware. They just don't know 
the quality of training. A comment from one of them was, ``This 
is world-premier, and I could not afford to train my people to 
the level of the training that these young soldiers receive.''

                               TRANSITION

    I think it is about that. I think it is about partnering 
with our people outside the gates, partnering with our 
representatives, getting those industry leaders to come and 
see. And it brings value to the programs, like Soldier for Life 
and our tuition assistance programs, as well as our Transition 
Assistance Programs.
    And it is going to take one person to spread the word, but, 
I think that we have to bring value. We have got to tell the 
Army story. We have got to tell the Marine Corps story, the 
Navy story, and the Air Force story, and say, ``There is a 
better product coming out from that service when they 
separate.''
    Mr. Joyce. And I certainly think that all of us here, in a 
bipartisan way, would be glad to host those type of things in 
our districts, to make that happen, working together, hopefully 
make these transitions easier.
    Master Chief Stevens. So, Mr. Congressman, you are over 
time so I am going to get you in trouble real quick.
    The Navy--chief of Navy personnel----
    Sergeant Major Dailey. Who used to have arrest powers.
    Master Chief Stevens. The chief of naval personnel, Vice 
Admiral Moran, recently announced an initiative we are calling 
Talent Management, and a part of that initiative is to partner 
with local schools within the communities to provide some 
levels of training and certifications for our service members.
    The jury is still out because there is a lot of work to do 
on that and we would have to figure out how to navigate that 
landscape, but to yourself and to Congressman Jolly's point, 
partnering with the local area to leverage those opportunities 
we believe is important, and through Talent Management we hope 
to get there. And we will see how it works out.
    Mr. Joyce. I yield back, Mr. Chairman.
    Mr. Dent. Thank you.
    At this time I recognize Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    You didn't have anything to yield back.
    Mr. Chairman, I appreciate you holding this very important 
hearing.
    Gentlemen, welcome. What a pleasure it is for me 
personally--all of us, I think it is safe to say--to hear from 
you.
    You have excellent precision of detail, command of your 
thoughts, and this deep passion for those under your authority, 
and I greatly respect that and am grateful that you are willing 
to share thoughts and ideas in a constructive fashion and be 
forthright about challenges and problems, but also your 
willingness to lean into them and overcome them.
    Sergeant Major Green, you alluded to your pending 
retirement. When you finish your military service and someone 
asks you, what did you do in life, you are not going to say, 
``I worked for the federal government.'' You are not going to 
say, ``I worked for the Defense Department.'' You are going to 
say, ``I am a Marine.''
    Sergeant Major Dailey, you talked about being a soldier for 
life. All of us up here, when we retire or more creatively 
moved on, when people ask us, what did you do in life, we are 
not going to say we worked for the federal government. ``I was 
a member of the United States Congress.''
    In other words, this ennobling call to public service--
particularly military service, but in general, public service--
I think is one that we all ought to take with most seriousness 
of intent and immerse ourselves in, because it is, in many 
ways, especially for you, extraordinarily sacrificial.
    So in that regard I wanted to thank you, but also throw out 
some ideas in this regard that builds upon this narrative of 
being part of a committed family not just during your time of 
service, but afterward--being a part of a bond, really, that is 
unbreakable, given that you did your duty to your country and 
that you will always belong to.
    A simple idea, but I think it is important, of building out 
that narrative is expanding some of the services that you 
currently offer to active duty personnel to those who, for 
instance, have service-related disabilities.
    Each year we kind of go through this little argument about 
cutting back commissary services, which in my mind is silly. I 
mean, one of the things that bonds the military family together 
is this ability to shop on base, get goods at a little bit 
better price. Let's extend that in a small step--first to 
service-connected disability, persons with those and their 
dependents.
    Creating, strengthening that bond, that family, that 
ongoing commitment to military life, which is always in the 
mind and heart, but why not do that? We have analyzed it. 
Basically no cost. Simple idea, but a big idea to strengthen 
this bond outside the gates, as you have mentioned.
    The second one is--and it is the rhetorical thread that we 
have been talking about today--is we have to attack this 
scandal of veterans unemployment. And I have heard--listened 
very carefully to all of the various components of policies and 
new programs that you have implemented and that are starting to 
show some good signs of challenging this.
    I am going to throw out another idea for you. A while back 
I looked at the number of service personnel who actually use 
G.I. Bill benefits, and it is fairly small. And you know what? 
As important as college is, it is not for everyone. And in some 
ways that should not be stigmatized.
    And moving directly into a trade or some other skill, where 
you don't have to have the fullness of a 4-year academic 
institution behind you, as important and essential as that is 
for many areas, it is important that we emphasize that, but 
there is another component of this.
    In America right now we have more small businesses dying 
than are being born. In other words, we have an entrepreneurial 
winter on our hands. And part of the bigger issue that is not 
your problem, but it is our problem, but you can help us with 
our problem--of turning the country around economically is 
identifying persons with a dedicated, entrepreneurial skill set 
who could move more directly into a business, whereby they are 
taking a little risk, they are using their skill sets which you 
may have greatly empowered them with.
    I went and visited a young man one time who had lost a limb 
in Afghanistan. Very young, he is probably 20, 21 years old. 
Expert in motorcycle engine repair. I said, ``What do you want 
to do?''
    ``I want to go into motorcycle engine repair.''
    Now, he is not going to go on to a university setting. He 
could potentially take that skill set right there, with a 
little bit of seed capital that could come from that G.I. 
benefit if we tweaked the nature of the program slightly, and 
invest that as the startup capital in a small business.
    That is not for everyone. In fact, it is for a very small 
percentage of people. But there are people who have this 
capacity, who have the skill sets, and with a little bit of 
seed capital, maybe in conjunction with the private sector--we 
are talking about all kinds of initiatives with the private 
sector that would have some backstop for a loan--provide the 
backstop for a loan guarantee of some kind.
    This is a way in which we can help attack the scandal of 
veterans unemployment, create a new entrepreneurial momentum in 
the country, and give a set of options that you are all eagerly 
looking to embrace for service personnel. So I would like to 
hear your comment on those two ideas.
    And my time is expired.
    How did I do that? Sorry.
    Mr. Chairman, could I indulge you for----
    Mr. Dent. Since you are the last member asking questions, 
if you can briefly answer those questions, and I know other 
members have hearings they need to get to.

                          VETERAN UNEMPLOYMENT

    Sergeant Major Dailey. Mr. Chairman, if I could, just 
briefly, we share the same motive and the same drive to do 
exactly what you wanted to do, and we will definitely take 
those ideas back, Mr. Congressman, and try to implement them 
with the capability that we have.
    I would say--and this is something I have been thinking 
about and something I would ask this committee for and other 
committees--is that we need to think this from a perspective of 
veterans' employment versus veterans' unemployment. So the cost 
of veteran unemployment is significant, and that was a cost 
that is endured by the services.
    But, a federally mandated employment program that gives 
those industries, you know, tax breaks or some other type of 
incentive would greatly assist in the employment of our 
veterans. And, I think partnering with our states to bring 
light to the great training and education we give our soldiers 
and making sure that they understand that, along with a federal 
assisted program, should turn this into a veteran employment 
program versus a veteran unemployment program.
    Chief Master Sergeant Cody. Congressman, I mean, so not to 
overuse this, but I would say amen. So I am all about that. I 
think that is a great idea, just like the Master Chief had to 
say.
    I think what I would--just knowing the environment and 
having been here many times before, how I would temper that. So 
I think we, within this body, and certainly within the service, 
would love to sit down and explore those type of options and 
partner and collaborate with the VA on how you put that out.
    But I will be honest with you: Given our environment--and 
it goes back to this, where do we spend our next dollar. I 
mean, if that comes out of the DOD budget to create defense for 
the nation I would take a different position today on that. 
Now, given a different environment I wouldn't, but having that 
ability to collaborate with you what the needs of the service 
members are as they leave and how do we best set them up, what 
can we do when they are serving to better prepare them when 
they make that transition, I think there is not one of us that 
wouldn't sit here and try to get as far to the right on that as 
we could and partner with you.
    But I would want to temper the discussion of who is going 
to bear the bill for that, given the reality--just the reality.
    Mr. Fortenberry. On the commissary----
    Chief Master Sergeant Cody. Yes, no. That is why I say 
amen.

                       TRAINING AND CERTIFICATION

    Mr. Fortenberry. On the other one----
    Chief Master Sergeant Cody. I think it is a great idea, 
sir. I mean, neither one of those things actually--if it 
doesn't cost us, and the one for the Post-9/11----
    Mr. Fortenberry. Don't worry, we got you----
    Chief Master Sergeant Cody. All right. Just got to get it 
out there.
    Sergeant Major Green. Within the Marine Corps, sir, we have 
partnered with the National Chamber of Commerce, Hiring Our 
Heroes, Hiring America Heroes. We have matched the Marine for 
Life program on the Reserve side up with our society out there, 
and we are making great progress.
    Understanding that the veterans' opportunity to work, a 
part of that--one part of it is focused on entrepreneurship, 
and we have focused in that area, and by matching the civilian 
sector up that has the resources out there, they have the 
resources, we are making great strides in getting Marines out 
there, and sailors, and dependents, into an entrepreneurship 
area you are talking about.
    Mr. Fortenberry. Do you have some----
    Sergeant Major Green. Yes, sir. I will take it for the 
record, sir, and I will submit it to you. Thank you.
    [The information follows:]

    As part of our Transition Readiness Seminar, interested Marines 
have the opportunity to attend a two day entrepreneurship workshop 
called ``Boots 2 Business,'' offered through our partner, the U.S. 
Small Business Administration (SBA), the federal government's experts 
on small business. The workshop provides Marines an overview of small 
business ownership. Marines who decide that small business ownership is 
an avenue they would like to approach are then able to enter an eight 
week small business distance education course, again offered through 
the SBA.

    Master Chief Stevens. I think the ACE accreditation 
process, so many of our schools have been evaluated and we get 
college credits for those schools. I would like to see 
something like that with many of our vocational-like schools.
    What has always bothered me is you can go through a 
training process to learn to be a diesel engine mechanic and 
graduate from that school with a military certificate to work 
on those engines and do that for 20 years, and then get out of 
the service and then have to go get recertified and go to 
school and spend all the money.
    The services have tried to partner with the outside to get 
those certifications, but for reasons that we don't have time 
to talk about in the next 30 seconds, we have found it to be 
very difficult.
    I am an aircraft mechanic. I did it for a long, long time. 
But through my process, if I wanted to get an AMP certification 
I had to go on the outside and get that certification. Now, 
granted, they gave me some credit for some of the things that I 
did, but it was--it is still very difficult.
    Why couldn't you come out of the service--20 years doing a 
job--and have the certificate to go work in industry? That has 
always bothered me. I don't understand it.
    Mr. Dent. Yes. That is an issue that has been near and dear 
to my heart. I have heard from members of the service who have 
been--have CDLs--the military equivalent of a CDL, I should 
say, and it is not transferrable, you know, into the civilian 
sector.

                             CREDENTIALING

    And every one of us probably gets calls from companies 
saying, ``We need people with CDLs,'' but we can't simply have 
all these wonderful veterans who have had this tremendous 
experience and credentialed, but can't transfer that. Very 
frustrating.
    Sergeant Major Green. Sir, in some of those jobs what we 
have looked at is bringing that credentialing agency to the 
service, and as we go through the school, aligning their 
credentials with ours. In some ways that works out fine because 
we are not--it is just knowing what the credentials are on the 
outside versus what we are doing.
    A lot of it is parallel. It is just tweaking it a little 
bit so that when they get out they actually have those 
credentials. And that is what I meant when I said we are 
partnering with outside resources to align some of that.
    Mr. Dent. I would say that we would like to use this 
committee to help you in that effort----
    Sergeant Major Green. Yes, sir.
    Mr. Dent [continuing]. But at some point we need to make 
this same argument to the authorizing committees to make sure 
they hear exactly what you just said--as well as the states 
need to hear this, too, in terms of licensing, and many 
credentialing are really state-level functions.
    Well, with that, I just want to thank all of you for being 
here today. This concludes this hearing.
    Also wanted to say to each of you, you are a great credit 
to your respective services, and you should be very proud of 
what you have done, and more important, proud of the people 
that you serve with or serve under you. You are a great credit 
to them and great advocates for them.
    And to our returning leaders here today, Master Chief 
Stevens and Chief Master Sergeant Cody, thank you for once 
again being here.
    And to our two newbies, Sergeant Major Green and--
    Mr. Dent. Sergeant Major Dailey, and the pride of 
Palmerton, the coal kid from Carbon County, you did us proud, 
and the people in the Greater Lehigh Valley Region--he is on 
the other side of the Blue Mountains from me.
    But again, thank you all for being here.
    Our next hearing, by the way, is March 3rd at 1 o'clock in 
one of these rooms here, 2358B Rayburn, with the services' 
installation secretaries.
    So thank you all again, and this hearing is adjourned.
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
       
</pre></body></html>
